CERTIFICATE OF SERVICE
NO. 19-191
Ashley Wilcox Page
Petitioner(s)
v.
Todd L. Hicks, Et. Al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ASHLEY
WILCOX PAGE REPLY BRIEF OF PETITIONERS, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
David R. Mellon
The University of Alabama System, UAB
Office of Counsel
1720 2nd Avenue South
Suite AB 820
Birmingham, AL 35294-0108
(205) 934-3474
drmellon@uasystem.edu
Counsel for Respondents

Lucas DeDeus

October 18, 2019
SCP Tracking: Montiel, Sr.-6752 Taylor Circle-Cover Tan

